            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      DISABILITY INSURANCE AND
SUPPLEMENTAL SECURITY INCOME CLAIMS
     APPROVED IN 2006 BUT NOT PAID

      July 2010   A-01-10-11009




  AUDIT REPORT
                                                      Mis s io n

By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity

Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n

We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM


Date:      July 16, 2010                                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disability Insurance and Supplemental Security Income Claims Approved in 2006 But
           Not Paid (A-01-10-11009)


           OBJECTIVE

           The objective of our review was to identify Disability Insurance (DI) and Supplemental
           Security Income (SSI) claims that were medically allowed for disability benefits in
           Calendar Year 2006 but had not been paid.

           BACKGROUND

           The Social Security Administration (SSA) provides DI and SSI disability benefits to
           eligible individuals under Titles II and XVI of the Social Security Act. 1 To receive
           disability benefits, an individual must first file an application with SSA. An SSA field
           office then determines whether the individual is performing substantial gainful activity
           and whether he or she meets the non-disability criteria for benefits. 2 If so, field office
           staff generally forwards the claim to the disability determination services (DDS) in the
           State or other responsible jurisdiction for a disability determination. Once the DDS
           makes a determination, it sends the claim to an SSA office for final processing or to a
           Disability Quality Branch for review before final processing. 3



           1
               The Social Security Act, §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq.
           2
             For DI benefits, the non-disability criteria include such factors as sufficient earnings. For SSI payments,
           the non-disability criteria include such factors as limited income and resources.
           3
             The Disability Quality Branches review half of all allowances, which are selected by a predictive model.
           See Social Security Act, §§ 221(c) and 1633(e), 42 U.S.C. §§ 421(c) and 1383b (e). See also
           20 C.F.R. §§ 404.1640 through 404.1643 and 416.1040 through 416.1043. Disability Quality Branches
           also review 70 allowances and 70 denials per DDS per quarter. This sample ensures statistically valid
           findings for all DDSs irrespective of size. For each review, a Federal quality reviewer determines
           whether the record supports the DDS’ determination and whether the evidence and determination
           conform to SSA’s policies and procedures.
Page 2 - The Commissioner

If the claimant disagrees with the initial disability determination, he or she can file an
appeal within 60 days from the date he or she is notified of the determination. In most
cases, there are three levels of administrative appeal that an individual may request:
(1) reconsideration by the DDS, (2) hearing by an administrative law judge (ALJ), and
(3) review by the Appeals Council. After completing the administrative review process,
dissatisfied claimants may appeal to the Federal courts. 4

According to SSA’s Office of Disability Program Management Information, for Fiscal
Year 2006, there were over 3.5 million cases decided at the initial, reconsideration, and
ALJ levels. Table 1 shows the breakdown of claims for each of the three levels.

                                                Table 1
          Level of       Number of                                       Denials/
                                         Allowances        Percent                        Percent
     Determination         Claims                                       Dismissals
    Initial              2,482,870          869,005          35%         1,613,866           65%
    Reconsideration        500,806           65,105          13%           435,701           87%
    ALJ                    550,011          341,007          62%           209,004           38%
    TOTAL                3,533,687        1,275,117                      2,258,571

During our review, Impact of the Social Security Administration’s Claims Process on
Disability Beneficiaries (A-01-09-29084), we found an individual who was medically
allowed for a disability benefit in Calendar Year 2006 but was not paid as of July 2008.
In October 2008, we referred this case to SSA, whose staff concluded the claim should
have been paid. We initiated this review to determine the extent of this issue.

METHODOLOGY

We obtained a file containing all DI and SSI disability allowances for Calendar Year
2006 that were decided by either a DDS or an ALJ. We initially identified a total of
123,332 DI claimants and 358,826 SSI claimants who were medically allowed for
disability payments but were not receiving them as of July 2008. Through further
analysis, we determined most of these individuals had received benefits at some point
and were no longer eligible (for example, individual was deceased) or were never
eligible for payments because they did not meet the non-medical criteria. However, as
of January 2010, we identified 61 cases that appeared to need corrective action by
SSA. We referred these 61 cases to SSA’s Office of Operations for review and
appropriate action. (See Appendix B for our scope and methodology.)




4
 The reconsideration step of the administrative review process is eliminated for DDSs participating in the
Disability Redesign Prototype (Alabama, Alaska, California—Los Angeles North and Los Angeles West
Branches—Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania).
Page 3 - The Commissioner


RESULTS OF REVIEW

Based on our review, SSA determined that most of the 61 cases we identified needed
corrective action as these claimants had not received payments based on the medical
allowance decisions issued in Calendar Year 2006.

Of the 61 cases we referred,
                                                                  Re sults of Review

    •   45 (74 percent) needed
                                                                                          15 Cases
        corrective action and SSA                    45 Cases                                No
        calculated $814,862 in past                  Corrective                           Corrective
                                                      Action
        due benefits, 5                               Taken
                                                                                            Action
                                                                                           Needed
    •   15 (25 percent) did not need                 $814,862

        corrective action, 6 and                                                         1 Case
                                                                                        Still Being
    •   1 (1 percent) was still being                                                   Reviewed
        reviewed by SSA as of                                                            By SSA
        July 2010.

CLAIMANTS WHO DID NOT RECEIVE BENEFITS

In 45 cases, the DI and SSI claimants should have received payments for the medical
allowance decision for which they had not been paid. We determined that 29 of the
45 claimants received some type of benefit from SSA other than their unpaid allowance
claim; therefore, these individuals may have believed this was the only benefit they
were entitled to receive. As of July 2010, the Agency calculated past due benefits of
$814,862 to 41 claimants; and in 4 cases, SSA had not yet calculated past due
benefits. 7 Additionally, these claimants will receive about $255,168 in benefits over the
next 12 months. 8 Of the $814,862 in past due benefits,



5
  Of the $814,862 in past due benefits: (1) $378,092 was paid to the claimants; (2) $12,710 was used to
collect overpayments from other benefits the claimants were receiving; and (3) $30,673 was used to
collect overpayments for other individuals, such as a spouse, widow, or child, who received benefits on
the same record as the unpaid claimants. The remaining $393,387 was SSA’s preliminary estimate of
benefits due while staff were completing these cases.
6
 For example, in some of these cases, the claimant was allowed for Medicare only or the claimant did
not meet insured status at the time of disability onset. Insured status is the earnings requirement a Social
Security number holder must meet to establish entitlement to any type of benefit or a period of disability
based on their earnings record. See POMS RS 00301.101 A.1.
7
 The average past due benefit was $19,875; and these past due benefits ranged from a low of $113 to a
high of $72,033.
8
 In 3 of the 45 cases, the claimants were deceased but entitled to their disability benefit; therefore, SSA
calculated a lump sum death benefit to be paid to their widows. We did not include these 3 claimants in
our future benefits calculation.
Page 4 - The Commissioner

        $698,102 was calculated for 34 DI claimants, with an average past due benefit of
         $20,532; and
        $116,760 was calculated for 7 SSI claimants, with an average past due benefit of
         $16,680.

Table 2 shows the range of past due benefits SSA had calculated for the 45 claimants
as of July 2010 and Table 3 shows their disabilities.

                                                 Table 2
                                                                      Number of
                    Past Due Benefits Range                                              Percent
                                                                      Claimants
        $0 to $10,000                                                     21              47%
        $10,001 to $25,000                                                 6              13%
        $25,001 to $50,000                                                 9              20%
        $50,001 to $100,000                                                5              11%
        SSA in Process of Calculating Past Due Benefits                    4               9%
        TOTAL                                                             45             100%

                                                 Table 3
                                                                      Number of
                         Type of Disability                                              Percent
                                                                      Claimants
        Mental Disorders                                                  25                56%
        Musculoskeletal                                                    5                11%
        Malignant Neoplastic Diseases                                      3                 7%
        Neurological                                                       3                 7%
        Special Senses and Speech                                          3                 7%
        Immune System Disorders                                            2                 4%
        Cardiovascular                                                     1                 2%
        Endocrine                                                          1                 2%
        Impairments that Affect Multiple Body Systems                      1                 2%
        Respiratory                                                        1                 2%
        TOTAL                                                             45               100%

For example, an individual diagnosed as having a mental disorder applied for DI
benefits in October 2005 and was allowed in February 2006 but was not paid. As a
result of our referral, SSA determined this claimant should have been paid for his
2006 allowance, and the Agency calculated a past due benefit of $39,345 for the period
March 2006 through March 2010. 9 According to SSA, the individual did not receive the
DI benefit because the claim was never processed.

9
 For this review, we did not contact claimants to determine any possible impact the wait for disability
benefits had on them. In 2009, we conducted a review to determine the impact the wait for disability
Page 5 - The Commissioner



In another example, an individual with a musculoskeletal disability applied for SSI
payments in December 2005 and was allowed by the DDS in February 2006 but was
not paid. According to SSA, the Agency was not aware that the SSI payment was not
processed as the claimant’s file was not on a control listing. SSA calculated a past due
SSI payment of $16,227 for the period January 2006 through March 2010.

Reasons Why Claimants Did Not Receive Their Benefits

The 45 claimants did not receive their benefits because of employee error that occured
while the individuals’ claims were being processed. 10 Some of the cases involved
manual processing of the claim because of a processing limitation in SSA’s system.
Table 4 shows which type of SSA office worked the cases that resulted in the claimants
not receiving benefits, and Table 5 shows the number of cases by Region.

                                                Table 4
                                                             Number of
                     Office That Caused Error                                  Percent
                                                             Claimants
                Field Office                                    42                93%
                Payment Service Center                           2                 5%
                Disability Quality Branch                        1                 2%
                TOTAL                                           45               100%


                                                Table 5
                                                             Number of
                             SSA Region                                        Percent
                                                             Claimants
               Region 1 – Boston                                  5             11%
               Region 2 – New York                                5             11%
               Region 3 – Philadelphia                            4              9%
               Region 4 – Atlanta                                12             27%
               Region 5 – Chicago                                 6             13%
               Region 6 – Dallas                                  3              7%
               Region 7 – Kansas City                             2              4%
               Region 8 – Denver                                  0              0%
               Region 9 – San Francisco                           8             18%
               Region 10 – Seattle                                0              0%
               TOTAL                                             45            100%


benefits had on claimants in our report, Impact of the Social Security Administration’s Claims Process on
Disability Beneficiaries (A-01-09-29084), September 2009.
10
   There were 44 different field offices which processed the 45 claims.
Page 6 - The Commissioner



For example, one claimant who was diagnosed with a musculoskeletal disability was
allowed DI benefits in September 2006. SSA needed to process the DI claim manually;
however, the field office never processed the claim, and this resulted in the claimant not
receiving her DI benefits. SSA calculated a past due DI benefit totaling $854 for the
period April 2006 through March 2010. This claimant began receiving SSI payments in
December 2006, around the same time she was allowed DI benefits; therefore, she
might not have been aware that she should have started receiving DI benefits as well.

In another case, a claimant had a hearing disability and was allowed a DI benefit in
March 2006. The Disability Quality Branch selected her claim for review before final
processing. After review, the Disability Quality Branch did not transfer the case to the
field office for final processing, resulting in the claimant not receiving her DI benefits.
As of July 2010, SSA has not yet determined how much this individual should receive in
past due benefits.

Another claimant was allowed DI benefits in October 2006 for a cardiovascular
disability; however, the field office did not process his DI benefit correctly. Therefore,
this individual did not receive his DI benefit. The Agency calculated a past due benefit
of $27,731; however, the claimant had not yet received the past due benefit as he was
in payment suspension because SSA was selecting a representative payee for this
individual. 11

CLAIMANTS SHOULD HAVE RECEIVED BENEFITS EARLIER THAN THEY DID

While identifying our population for this review, we found 19 claimants who were
receiving widows’ benefits; however, it appeared they should have started receiving
benefits earlier than they did. We referred these 19 cases to SSA’s Office of
Operations for review and appropriate action.

SSA determined 16 of the 19 claimants should have received benefits earlier than they
did. The Agency applied an incorrect month of entitlement while processing these
cases, which caused the claimants to start receiving benefits later than they should
have. The Agency calculated $122,154 in past due benefits for these 16 DI
claimants. 12 Table 6 shows the Regions where these cases were processed.




11
  A representative payee is a person or organization selected by SSA to receive and manage benefits on
behalf of an incapable beneficiary. Payees are responsible for using Social Security benefits to serve the
beneficiary’s best interests. See Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and
1383(a)(2).
12
   Of the $122,154 in past due benefits, $112,928 was paid and/or applied to outstanding overpayments
for the claimants. The remaining $9,226 was SSA’s preliminary estimate of benefits due while staff was
completing these cases. The average past due benefit was $7,635 and these past due benefits ranged
from a low of $2,100 to a high of $15,557.
Page 7 - The Commissioner



                                            Table 6
                                                  Number of
                           SSA Region                                   Percent 13
                                                  Claimants
                    Region 1 – Boston                  0                    0%
                    Region 2 – New York                2                   13%
                    Region 3 – Philadelphia            1                    6%
                    Region 4 – Atlanta                 3                   19%
                    Region 5 – Chicago                 3                   19%
                    Region 6 – Dallas                  2                   13%
                    Region 7 – Kansas City             0                    0%
                    Region 8 – Denver                  0                    0%
                    Region 9 – San Francisco           4                   25%
                    Region 10 – Seattle                1                    6%
                    TOTAL                             16                  100%

For example, in one case, a claimant with a musculoskeletal disability was allowed in
August 2006 for a disabled widow’s benefit. The Agency established the claimant’s
month of entitlement at age 60 for a widow’s benefit and did not consider her disabled
widow’s benefit. 14 This resulted in the widow receiving benefits 9 months later than she
should have. The Agency calculated past due benefits of $10,035.

We plan to do further work in this area to determine the extent of this issue concerning
disabled widows who should have received benefits earlier than they did.

CONCLUSION AND RECOMMENDATION

Our review of allowance decisions issued in Calendar Year 2006 found 45 beneficiaries
who were not paid as of 2010—4 years after the decisions to pay the claimants were
made by SSA. These 45 cases represent only 0.004 percent of the 1.3 million
allowance decisions issued in 2006. Additionally, while identifying our population for
this review, we found 16 individuals who were receiving widows’ benefits; however, they
should have started receiving benefits earlier than they did. We plan to perform further
work in these two areas to determine the extent of unpaid disability allowance decisions
and underpaid disabled widows.




13
     The total percent column equals 101 percent because of rounding.
14
  To be entitled to a disabled widow’s benefit, a widow must have attained age 50, but not attained
age 60. For a regular widow’s benefit, the widow must be at least age 60. See POMS DI 10110.001 and
RS 00207.001.
Page 8 - The Commissioner

We referred the 45 unpaid allowance cases and 16 widows’ cases to SSA, and the
Agency initiated its review and corrective action as soon as we notified them of these
cases. The Agency calculated past due benefits of $814,862 for the 45 unpaid
claimants and $122,154 for the 16 underpaid disabled widows. 15

We recommend that SSA complete its work on the 45 unpaid claimants and 16 widows
we identified and ensure all past due benefits are paid to beneficiaries as appropriate.

AGENCY COMMENTS

SSA agreed with our recommendation. Comments are included in Appendix C.




                                                               Patrick P. O’Carroll, Jr.




15
     As of July 2010, SSA has not yet calculated past due benefits for 4 of the 45 unpaid claimants.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
ALJ      Administrative Law Judge
DDS      Disability Determination Services
DI       Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                Appendix B

Scope and Methodology
To achieve our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.
•   Reviewed prior Office of the Inspector General reports.
•   Obtained a file of all disability claims with an initial, reconsideration, or hearings
    level allowance in Calendar Year 2006. From this file, we:
      Identified 358,826 Supplemental Security Income claimants who were medically
       allowed for disability payments but were not receiving them as of July 2008.
      Identified 123,332 Disability Insurance claimants who were medically allowed
       for disability benefits but were not receiving them as of July 2008.
      Reviewed SSA mainframe queries and conducted further analysis to identify
       61 cases which appeared to need corrective action as these claimants did not
                                                                                 1
       receive payment for their medical allowance issued in Calendar Year 2006.
      Referred these 61 cases to SSA’s Office of Operations for review and
       appropriate action.

Additionally, while we were identifying our population for this review, we found 19 cases
in which it appeared the claimants should have started receiving benefits earlier than
they did. Therefore, we also referred these 19 cases to the Office of Operations for
review and any necessary corrective action.

We conducted our audit between January and July 2010 in Boston, Massachusetts.
The entity audited was the Social Security Administration’s Regional Commissioners
under the Deputy Commissioner for Operations. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




1
  We were able to exclude most cases because we determined claimants (1) had received benefits for
their 2006 medical allowance and were no longer eligible in July 2008 or (2) were never entitled to
disability benefits because they did not meet the non-medical eligibility requirements.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      July 9, 2010                                                            Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner


Subject:   Office of the Inspector General (OIG) Draft Report, “Disability Insurance and Supplemental
           Security Income Claims Approved in 2006 But Not Paid” (A-01-10-11009)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY INCOME CLAIMS
APPROVED IN 2006 BUT NOT PAID” (A-01-1011009)


We agree with your findings and recommendation.

COMMENTS ON RECOMMENDATION

Recommendation

We recommend that SSA complete its work on the 45 unpaid claimants and 16 widows we
identified and ensure all past due benefits are paid to beneficiaries as appropriate.

Comment

We agree. We are currently working these claims and will pay all past due benefits as
appropriate by July 2010.




[In addition to the information listed above, SSA also provided additional comments,
which were incorporated in the report where appropriate.]




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

   Frank Salamone, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-11009.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                            Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance measures.
In addition, OTRM receives and assigns for action allegations of criminal and administrative violations of Social
Security laws, identifies fugitives receiving benefit payments from SSA, and provides technological assistance to
investigations.
